September 20, 1999

M. RICHARD PORRAS
CHIEF FINANCIAL OFFICER AND SENIOR VICE PRESIDENT

KENNETH J. HUNTER
CHIEF POSTAL INSPECTOR

SUBJECT:	 Bank Secrecy Act System Update
          (Audit Report Number FR-AR-99-007)

Attached is our report on the United States Postal Service (USPS) implementation of

the Bank Secrecy Act. We initiated this audit to determine if the Bank Secrecy Act 

System will allow the USPS to comply with the requirements of the Bank Secrecy Act in 

a timely manner. 


The audit revealed that USPS had made progress towards implementing the Bank 

Secrecy Act, but continues to be non-compliant with the Act in certain areas. 

Specifically, full implementation was delayed due to restricted funding and 

unanticipated system development complications, standard operating procedures were

not developed and sensitive and restricted production data was used in the ‘test’

environment. Management agreed to our recommendations and the corrective actions 

taken or planned address the issues in this report. 


We appreciate the cooperation and courtesies provided by your staff during the review. 

If you have any questions or need additional information, please contact 

John M. Seeba, Director, Financial Audit, at (703) 248-2207 or me at (703) 248-2300. 




Richard F. Chambers

Assistant Inspector General

 for Performance

Attachment
cc: 	 Richard D. Weirich
      Stephen M. Kearney
      Robert J. Pedersen
      J. Mike Boswell
      Allen R. Kane
      Kristine A. Wright
      Robert L. Otto
      John R. Gunnels
      Alan B. Kiel
Bank Secrecy Act System Update                               FR-AR-99-007



                                 TABLE OF CONTENTS
Part I


Executive Summary
                                              i


Part II


Introduction
   Background                                                   1

   Objective, Scope, and Methodology                            2

   Prior Audit Coverage                                         2



Audit Results
   Bank Secrecy Act Compliance                                  3

   Recommendations                                              5
   Management Comment                                           5

   Overall Evaluation of Management’s Comments                  6



Appendix: Management’s Comments                                 7





                                    Restricted Information
Bank Secrecy Act System Update 	                                                                   FR-AR-99-007



                                      EXECUTIVE SUMMARY
Introduction                     This report presents the results of our audit on the progress
                                 of USPS implementation of the Bank Secrecy Act (Project
                                 Number 99PF004FR000). Our objective was to determine
                                 if the Bank Secrecy Act System will allow USPS to comply
                                 with the requirements of the Bank Secrecy Act in a timely
                                 manner.

Results in Brief                 The USPS has made progress towards implementing the
                                 Bank Secrecy Act, but continues to be non-compliant with
                                 the Act in certain areas.1 Specifically:

                                 •	 USPS management officials do not expect full
                                    implementation of the Bank Secrecy Act System until
                                    the end of fiscal year 2001 or the beginning of fiscal year
                                    2002.

                                 •	 Standard operating procedures were not developed for
                                    the Bank Secrecy Act Support Group at the St. Louis
                                    Accounting Service Center. Further, a formal
                                    agreement was not established between the Inspection
                                    Service and the Bank Secrecy Act Compliance Office
                                    concerning each other's specific roles and
                                    responsibilities regarding the USPS compliance and
                                    anti-money laundering program; and

                                 •	 Application developers used sensitive and restricted
                                    production data in the ‘test’ environment.

Summary of                       We recommended that the Chief Financial Officer and
Recommendations                  Senior Vice President fund implementation of the Bank
                                 Secrecy Act and consider appointing a full-time Compliance
                                 Officer to facilitate the implementation of the Bank Secrecy
                                 Act system. We also recommend that responsible officials
                                 establish standard operating procedures and a formal
                                 agreement regarding the USPS Bank Secrecy Act Program.
                                 The specific recommendations are contained in the body of
                                 this report.

Summary of                       Representatives of the Chief Financial Officer and Senior
Management’s                     Vice President, and the Chief Postal Inspector concurred

1
  USPS may be considered generally compliant in the area of money laundering deterrence, but is not compliant in
the areas of reporting required transactions, suspicious analysis, and compliance monitoring.



                                                        i
                                             Restricted Information
Bank Secrecy Act System Update                                                FR-AR-99-007



Comments                    with the recommendations contained in this report. Their
                            response to the recommendations included a summary of
                            initiatives the USPS has in progress, completed, or
                            planned, addressing the issues. We summarized these
                            responses in the report and included the full text of the
                            responses in Appendix.

Evaluation of               Management’s corrective actions taken or planned are
Management’s                responsive to the issues addressed in this report.
Comments




                                                ii
                                     Restricted Information
Bank Secrecy Act System Update 	                                                       FR-AR-99-007



                                               INTRODUCTION
                                                               2
Background 	                       The Bank Secrecy Act is a law enacted to deter money-
                                   laundering activities. Money laundering is the attempt to
                                   conceal or disguise the nature, location, source, ownership,
                                   or control of money derived from illegal activities. In the
                                   United States alone, estimates of the amount of drug profits
                                   laundered through various financial systems have been as
                                   high as $100 billion. The Bank Secrecy Act requires certain
                                   cash purchases of financial instruments such as money
                                   orders, wire transfers, and stored value cards to be reported
                                   to the United States Department of Treasury.

                                   The Bank Secrecy Act requires the USPS to establish and
                                   maintain a compliant program; an active anti-money
                                   laundering program; and audits to evaluate compliance.
                                   Establishing a compliance program includes training
                                   applicable employees, recording and reporting required
                                   transactions to the United States Department of Treasury,
                                   and monitoring internal compliance with the Bank Secrecy
                                   Act requirements. An active anti-money laundering
                                   program includes detecting and deterring money laundering
                                   activity. The USPS Office of Inspector General will
                                   periodically perform independent audits to evaluate
                                   compliance. The USPS may be subject to civil penalties for
                                   willful non-compliance with Bank Secrecy Act reporting and
                                   record-keeping requirements that range from $25,000 to
                                   $100,000 for each occurrence.

                                   The USPS is currently developing a Bank Secrecy Act
                                   System, which will provide them with the ability to monitor
                                   the USPS compliance with the Bank Secrecy Act.
                                   Specifically, the system will assist the USPS in, among
                                   other things:

                                  a. 	 determining whether required records and reports were
                                       properly completed and reported as required;
                                  b. 	 performing suspicious analysis on the sale of various
                                       USPS financial products for use in investigations; and
                                  c. 	 detecting and deterring money laundering by identifying
                                       potential money laundering scenarios.

Objective, Scope, and	 Our objective was to determine if the Bank Secrecy Act

2
    Public Law 91-508, 84 Stat. 1114 (1970).



                                                          1
                                               Restricted Information
Bank Secrecy Act System Update 	                                                FR-AR-99-007



Methodology	                 System will allow USPS to comply with the requirements of
                             the Bank Secrecy Act in a timely manner. We reviewed
                             documentation for the Bank Secrecy Act System
                             development and discussed the current status of the Bank
                             Secrecy Act System with representatives from the St. Louis
                             Accounting Service Center and the Bank Secrecy Act
                             Compliance Office.

                             We conducted the audit from June through August 1999 in
                             accordance with generally accepted government auditing
                             standards and included such tests of internal controls as we
                             considered necessary. We discussed our conclusions and
                             observations with appropriate management officials and
                             included their comments, where appropriate.

Prior Audit Coverage 	 We issued a Management Advisory Report (FR-LA-98-001)
                       on the Bank Secrecy Act program on September 30, 1998.
                       In that report, we concluded that the USPS made progress
                       in complying with the BSA, but there were three areas of
                       concern:

                             •     system access,
                             •     training, and
                             •     document retention.

                             Management concurred with our suggestions and corrective
                             actions were planned or taken.




                                                   2
                                        Restricted Information
Bank Secrecy Act System Update                                                                         FR-AR-99-007



                                            AUDIT RESULTS 

Bank Secrecy Act                  The USPS has not complied with the Bank Secrecy Act3
Compliance                        since 1988 when they were first placed under the reporting
                                  requirements of the Bank Secrecy Act.4 Specifically,
                                  compliance monitoring, suspicious analysis of transactions,
                                  required reporting of transactions to the United States
                                  Department of Treasury, and anti-money laundering
                                  procedures have not been fully implemented within the
                                  USPS Bank Secrecy Act Program.

Bank Secrecy Act                  USPS management officials do not expect full
System                            implementation of the Bank Secrecy Act system until the
                                  end of fiscal year 2001 or the beginning of fiscal year 2002.
                                  Implementation was delayed due to restricted funding5 and
                                  unanticipated system development complications related to
                                  Privacy Act and other system requirements. Non-
                                  compliance with the Bank Secrecy Act subjects the USPS
                                  to millions of dollars6 of potential civil penalties and
                                  increases the risk that USPS financial instruments will be a
                                  vehicle to launder money. In addition, the cost of
                                  implementing the system could be offset with laundered
                                  money that is seized and forfeited to the USPS.

Standard Operating    Standard operating procedures were not developed for the
Procedures and Formal Bank Secrecy Act Support Group at the St. Louis
Agreement             Accounting Service Center. Further, a formal agreement
                      was not established between the Inspection Service and the
                      Bank Secrecy Act Compliance Office concerning each
                      other’s specific roles and responsibilities regarding the
                      USPS compliance and anti-money laundering program.
                      Management personnel did not make the development of
                      standard operating procedures and a formal agreement a
                      priority. Standard operating procedures are necessary to
                      ensure the Bank Secrecy Act Support Group personnel are

3
  Several audit reports issued by the United States Postal Inspection Service during fiscal year 1999 have cited
specific instances of non-compliance with the Bank Secrecy Act. Specifically, 32 of 41 offices (78%) visited in
Florida and New Jersey were non-compliant with various Bank Secrecy Act requirements. Examples of the non-
compliance issues included untimely submission of required forms, general lack of knowledge of the requirements,
and utilization of out-dated forms.
4
  A Federal Register bulletin was published on January 13, 1988, with an effective date of April 12, 1988, placing the
USPS under the reporting requirements of the Bank Secrecy Act.
5
  Due to current USPS financial constraints, budgeting and funding for the Bank Secrecy Act System was spread
over future years. Management personnel estimate that an additional $2.8 million would be needed in fiscal year
2000 to ensure the System is fully implemented by October 31, 2000 or shortly thereafter.
6
  Each instance of non-compliance with Bank Secrecy Act reporting or record keeping requirements subjects the
USPS to potential civil penalties ranging from $25,000 to a maximum of $100,000.



                                                         3
                                              Restricted Information
Bank Secrecy Act System Update                                                  FR-AR-99-007



                            aware of and perform their specific roles and responsibilities
                            to ensure compliance with the Bank Secrecy Act. In
                            addition, a formal agreement is necessary to ensure that all
                            aspects of Bank Secrecy Act compliance, to include the
                            anti-money laundering program, are addressed to alleviate
                            potential duplication of efforts within the program. Standard
                            operating procedures and a formal agreement will allow the
                            USPS to assess planned components of the Bank Secrecy
                            Act System for compliance with the Bank Secrecy Act.

Use of Sensitive and        In our audit report, Fiscal Year 1999 Information System
Restricted Production       Controls, San Mateo Information Service Center (Report
Data in the Test            No. FR-AR-99-008), we identified that application
Environment                 developers used sensitive and restricted production data in
                            the ‘test’ environment. One of the systems involved in this
                            issue was the Bank Secrecy Act system. This resulted
                            because of miscommunication between St. Louis Integrated
                            Business Systems Solutions Center, San Mateo Computer
                            Operations Service Center and Bank Secrecy Act
                            personnel. As a result, sensitive and restricted information
                            was made available to individuals who had no need to
                            access this data. We made recommendations to the
                            Computer Operations Service Center Manager in that audit
                            report and therefore, we make no further recommendations
                            in this report.




                                                4
                                     Restricted Information
Bank Secrecy Act System Update 	                                                FR-AR-99-007




Recommendations 	            We offer the following recommendations:

                             The Chief Financial Officer and Senior Vice President
                             should:

                             1. Provide funding to allow implementation of the Act by
                                October 31, 2000.

Management’s 	               The Chief Financial Officer and Senior Vice President
Comment 	                    concurred with this recommendation and stated that funding
                             will be provided to implement all components of the Bank
                             Secrecy Act System by October 31, 2000.

                             2. Consider appointing a full-time Bank Secrecy Act
                                Compliance Officer until the Bank Secrecy Act system
                                becomes fully operational.

Management’s 	               The Chief Financial Officer and Senior Vice President
Comment 	                    concurred with this recommendation and stated that a full-
                             time Bank Secrecy Act Compliance Officer would be
                             appointed by the beginning of Quarter II, Fiscal Year 2000.

                             3. Direct the Bank Secrecy Act Compliance Officer to:

                                   a. 	    Develop standard operating procedures for
                                           the Bank Secrecy Act Support Group at the
                                           St. Louis Accounting Service Center.

                                   b. 	    Coordinate operating procedures and
                                           responsibilities with the Bank Secrecy Act
                                           Support Group and the Inspection Service
                                           before incorporating changes in the Bank
                                           Secrecy Act System.

Management’s                 The Chief Financial Officer and Senior Vice President
Comment                      concurred with this recommendation and stated that
                             standard operating procedures for the Bank Secrecy Act
                             Support Group would be developed by November 30, 1999.
                             Further, he stated that operating procedures and
                             responsibilities would be coordinated with applicable
                             organizations prior to incorporating changes in the Bank
                             Secrecy Act System. 

                             The Chief Financial Officer and Senior Vice President and




                                                 5
                                      Restricted Information
Bank Secrecy Act System Update 	                                               FR-AR-99-007



                             the Chief Postal Inspector should:

                             4. Direct the Bank Secrecy Act Compliance Officer and the
                                Deputy Chief Inspector, Criminal Investigations, to
                                develop a Formal agreement concerning the specific
                                roles and responsibilities of their respective offices
                                regarding the USPS Bank Secrecy Act compliance and
                                anti-money laundering program.

Management’s 	               The Chief Financial Officer and Senior Vice President, and
Comment 	                    the Chief Postal Inspector concurred with this
                             recommendation. The Bank Secrecy Act Compliance
                             Office will develop a formal agreement by November 30,
                             1999.

Overall Evaluation of        Management agreed with our recommendations and the
Management’s                 corrective actions taken or planned address the issues
Comment                      raised in this report.




                                                 6
                                      Restricted Information
Bank Secrecy Act System Update                            FR-AR-99-007




                                            7                Appendix
                                 Restricted Information
Bank Secrecy Act System Update                            FR-AR-99-007




                                            8                Appendix
                                 Restricted Information
Bank Secrecy Act System Update                            FR-AR-99-007




                                            9                Appendix
                                 Restricted Information
Bank Secrecy Act System Update                            FR-AR-99-007




                                           10                Appendix
                                 Restricted Information
Bank Secrecy Act System Update                            FR-AR-99-007




                                           11                Appendix
                                 Restricted Information
Bank Secrecy Act System Update                            FR-AR-99-007



 Major Contributors to
 This Report




                                           12
                                 Restricted Information
